                                  AUDIT




 GOVTRIP USE AND MONITORING BY THE
 U.S. DEPARTMENT OF THE INTERIOR—
 FISH AND WILDLIFE SERVICE




Report No.: WR-IN-FWS-0012-2012   May 2013
                   OFFICE OF
                   INSPECTOR GENERAL
                   U.S. DEPARTMENT OF THE INTERIOR

                                                                                                 MAY 2 ·1 2013
Memorandum

To:                 Daniel M. Ashe
                    Director, U.S. Fish and Wildlife Service

From:               Kimberly Elmore ~~ ~
                    Assistant Inspector General for Audits, Inspections, and Evaluations

Subject:            Final Audit Report- GovTrip Use and Monitoring by the U.S. Department of the
                    Interior- U.S. Fish and Wildlife Service
                    Report No. WR-IN-FWS-0012-2012

       The U.S. Department of the Interior (DOl) spends approximately $250 million a year
through GovTrip on travel, with the U.S. Fish and Wildlife Service (FWS) accounting for about
$45 million of these funds.

        This report is part of our DOl-wide audit of GovTrip and related travel processes and
procedures. Although the contract for a new system is scheduled to replace GovTrip in
November 2013, we found several significant issues specific to FWS that warrant your attention
under the current GovTrip travel system. We plan to issue an audit report to the Deputy
Secretary that will focus on DOl's planned acquisition and use of a new travel management
system.

        We initiated an audit of DOl's GovTrip use and monitoring based on limitations in
GovTrip that we discovered during a prior evaluation, including DOl's and its bureaus' inability
to freely access travel system reports from GovTrip and the uncertainty of the reliability of the
data in those reports. 1 We determined that the risks presented by these limitations were
significant enough to warrant further review.

        The objective of our audit was to assess DOl's implementation, use, and monitoring of
GovTrip as a part of the overall travel system. Specifically, we assessed DOl's ability to
reconcile its various systems to determine whether data and dollars spent are fair and accurate.
The audit scope encompassed fiscal years 2009 and 2010 and included testing of more than 700
travel vouchers and 300 charge card statements across DOl's bureaus. We also interviewed more
than 100 DOl and bureau personnel involved in the travel process, including approving officials,
intermediate reviewers, and bureau travel leads.

       We conducted this audit in accordance with Generally Accepted Government Auditing
Standards. These standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our

1   "U.S. Department ofthe Interior's Video Teleconferencing Usage," WR-EV-MOA-004-2010. December 2011.


                               Office of Audits, Inspections, and Evaluations I Washington, DC
audit objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. We are attaching further detail as to the
objective, scope, methodology, and testing performed during this audit (see Attachment 1).

Background

        Since August 2007, DOI has used GovTrip under a task order from the General Services
Administration’s (GSA) master contract with Northrop Grumman for E-Gov Travel Services
(ETS). GSA’s master contract establishes GovTrip’s general requirements, and DOI’s task order
lays out other specific requirements. GSA’s master contract is set to expire in November 2013, at
which time DOI expects a new system to take the place of GovTrip under a new GSA contract
(ETS-2).

        GSA has selected a single vendor for ETS-2, though the system implementation process
is behind schedule. The bid process was initially delayed by legal challenges from one of the
bidding companies, and a current protest of the award is delaying the process even further. ETS-
2’s general requirements include more internal control points and reporting capabilities, but
much about ETS-2’s specific requirements and controls is still unknown. The unknown and
untested components of the new contract and travel system present both an opportunity and a
responsibility to assess how well FWS uses the current system and to determine ways in which it
can improve prior to the transition to ETS-2.

        Both GovTrip and the pending ETS-2 system have the Federal Travel Regulation (FTR)
as part of their foundation, which provides the regulatory framework for the approval,
processing, and payment of travel costs within the Federal Government. The GovTrip system has
worked in concert with these regulations to facilitate travel planning and payment, as will the
pending ETS-2 when it is in place.

Issues Found During Travel Voucher Testing

       We randomly selected 97 FWS vouchers and their related authorizations from fiscal years
2009 and 2010. The total amount paid from these vouchers was almost $340,000, which included
about $90,000 paid directly to travelers. We found the following areas of concern:

Missing Documentation and Errors in Expenses

        The FTR requires that receipts be provided for all expenses greater than $75, as well as
all receipts for lodging expenses, regardless of dollar amount (FTR § 301-52.4). We found 13
vouchers that did not have the required supporting documentation for all travel expenses. These
expenses were almost all for hotel and airfare, often the two highest value expenses on vouchers.

       In addition, FTR § 301-10.4 requires the most advantageous and expeditious method of
transportation to be used. In general, the FTR deems a common carrier to be the most
expeditious. One voucher, however, showed the use of the traveler’s personal vehicle (POV)
without any support for this decision. Another voucher showed that the traveler rented a car for
$50 per day, but drove the car only enough to use about 3.6 gallons of fuel. A third voucher


                                                                                                   2
included expenses for both a rental car and extensive use of a taxi. The traveler listed his
justification for using the taxi as not having any parking at the place of work but did not explain
why the traveler continued to incur costs for a rental car that sat unused for most of the trip.

        We also found 18 vouchers that either did not include all the expenses that were listed in
the travelers’ receipts or the amounts shown on the receipts did not match those on the voucher.
For example, one voucher had the airfare accounted for both under the per diem costs and as an
expense. Another voucher included hotel costs under both the expenses and as a per diem, a
condominium rental in addition to the hotel, and 1 month of lodging for $3,000 entered in the
expenses twice. Even if the travelers were not reimbursed for these incorrect entries, the actual
cost for both of these trips had been substantially overstated for reporting and monitoring
purposes. We found two vouchers claiming a combined mileage of almost 200 miles for the
drive to and from the airport, but a quick Internet search showed the actual combined distance
claimed should have been around 75 miles. We found six vouchers with hotel charges over the
standard per diem amount without adequate authorization or justification, including one voucher
that included an authorization for the hotel to cost 150 percent of standard per diem rates, but the
hotel receipt showed a cost to the Government of 200 percent of standard per diem rates. Two
vouchers included receipts showing travel locations that were not listed or approved on the
authorization, and three other vouchers reimbursed the traveler for per diem that was not
properly justified. Another traveler included a receipt for airfare, but the departure date did not
match the start date for the trip.

       Supervisors are not adequately reviewing the travel documents and are allowing far too
many authorizations and vouchers to be processed with errors, including improper charges that
should never be allowed. We found a voucher with alcohol and deodorant on the hotel receipt
and another voucher with a charge for cable television for a traveler on an extended detail. One
approving official signed his employee’s voucher with the following note: “Very complicated
TA. Actual details unknown to me. I have been advised to approve and see what happens.
Disclaimer/I am not saying legally that this voucher is accurate.”

        In all of these examples, travelers and associated approving officials requested or
approved travel documents with inappropriate travel allowances or failed to document the
justification for variances from normal or reasonable travel allowances. Whenever travelers
request approval for travel plans, they must meet the FTR requirements. Further, when
submitting vouchers for travel, travelers are required to abide by the FTR rules, and approvers
must affirm that the vouchers they are approving meet these requirements. In each of these
examples, neither the traveler nor the approver met these requirements of due diligence.

Missing Vouchers and Profiles

        Of the 97 vouchers selected for testing from the Northrup Grumman inventory of agency
vouchers for the 2-year testing period, we could access and fully audit 73 vouchers through the
GovTrip production system available to DOI. Of the 24 vouchers we could not review, we were
able to confirm that they were not available because the associated user profiles had been
removed from the system.



                                                                                                      3
        While we were attempting to determine why so many documents were not available for
review, the DOI travel lead informed us that the likely cause of document unavailability was
related to the deletion of user profiles from the production system. Because no audit trail exists
in the creation, use, or deletion of user profiles in GovTrip, this statement could not be verified,
nor could changes in user profiles during the period under review be evaluated.

        Vouchers created in GovTrip are not stored in any other system, and if they cannot be
retrieved from GovTrip, they cannot be retrieved at all, thus review of the document is not
possible. In addition, even though historical travel data can be obtained directly from the
GovTrip contractor, Northrop Grumman, we found in interviews with FWS and DOI personnel
that managers do not routinely request reports, and the contractor officials expressed hesitancy to
provide what they deemed to be additional services or ad hoc reports.

        In addition, the inability to look up historical travel documents limits FWS’s ability to
effectively track and manage expended travel funds. For example, FWS elects to perform a 10-
15 percent random sample audit of vouchers on a cyclical basis. It is impossible, however, to
select or review vouchers attached to deleted profiles for FWS’s 10-15 percent random sample
audit, increasing the potential for fraud, waste, or mismanagement to go undetected. GovTrip is
the single repository of detailed travel arrangements, documents, and approvals. Although
payment for travel related expenses is performed in agency financial systems, those systems will
record only the payments, not the supporting details behind them. Further, because GovTrip is
designed as a paperless electronic system, any gap in the GovTrip database results in a loss of
accountability for an agency. Responsibility for the accuracy and integrity of the travel database
has been, is, and will remain with the agency and DOI.

Authorizations Created after Trip Date

        Of the 73 authorizations selected for testing, 19 authorizations were created or approved
after the trip departure date. Although the FTR does permit this practice, FTR § 301-2.1 states:

       …Generally you must have written or electronic authorization prior to incurring
       any travel expense. If it is not practicable or possible to obtain such authorization
       prior to travel, your agency may approve a specific authorization for
       reimbursement of travel expenses after travel is completed.

         Of the authorizations tested, 26 percent failed to meet the general authorization
requirement, but there is no evidence that they met the “not practicable or possible” standard
stated above for the exemption. Further, the practice of creating or approving an authorization
after trip departure could contribute to an internal control breakdown if approvers feel pressured
to authorize already incurred travel expenses due to the financial impacts that would otherwise
fall to the employee responsible for all travel costs incurred.

Flagged Vouchers without Appropriate Justification

        It is not unusual for vouchers to be flagged by GovTrip’s automatic auditing system,
indicating a potential problem or error in the voucher. Of the 73 vouchers we selected for testing,


                                                                                                       4
20 had insufficient justifications submitted and approved for flagged items. In many cases,
travelers simply restated the flagged issue without explanation. For example, a voucher with
several flags had explanations for many of the exceptions stating, “Approved.” Another voucher
showed that the traveler had a rental car and also made extensive use of taxi trips, stating in the
justification that there was no parking at the place of work but lacking an explanation for the
continued expense of the rental car for the duration of the trip. These explanations do not
adequately justify the flagged exceptions and supervisors routinely stamp these documents
approved.

Auto-Approval

         GovTrip includes features that allow travel authorizations to be created without
managerial review or approval. Autobooking is one approach that allows travelers to arrange
travel without supervisory approval. Another approach is T-entering, a method by which an
arranger makes travel arrangements, creates travel documents, and signs the documents on behalf
of the traveler. Both features result in travel being created and booked without the benefit of
managerial or traveler review and approval. We found 48 authorizations that used one of
GovTrip’s auto-approval features. Auto-approval was developed when all travel arrangements
used a paper-based system and was intended to streamline travel arrangements for routine
mission travel and for cases of emergency travel. Because travelers now arrange travel
electronically, and supervisors approve it electronically, the need for auto-approval is greatly
limited. We found in interviews with travel supervisors and in our testing of travel vouchers that
auto-approval is being used for travel other than emergency trips. Because employees are
authorized to auto-approve their own travel, even though much of it is routine and known about
weeks or months in advance. Because employees are authorized to auto-approve their own
travel, the internal control safeguard inherent in obtaining supervisory approval for the use of
staff time and travel funds before the trip begins is being circumvented, thus increasing the
potential for fraud, waste, or mismanagement to go undetected.

Issues Found During Charge Card Statement Testing

        During our audit of the travel process, we learned that the only internal control
mechanism used to ensure the validity of travel charges was the required supervisory review of
charge card statements. When supervisors do not adhere to this internal control, it increases the
risk of management not detecting incorrect or improper charges since there are no other
procedures in place to ensure that supervisors are adequately reviewing and approving both
travel vouchers and charge card statements. Our tests of charge card statements covered only a
fraction of all FWS travel card statements. Unfortunately, in our selection of 50 charge card
statements across several FWS office locations, we found lax supervisory reviews that
contributed to issues with over one third of the statements reviewed. This presents significant
internal control risk:

Missing Signatures

        Nine of the 50 statements tested, almost 20 percent, did not have the required signatures
of both the supervisor and traveler. DOI policy requires supervisors to review statements and


                                                                                                    5
include the signatures of both supervisor and traveler on the statement to show that all charges
have been verified as appropriate and allowable travel expenditures.

Unexplained Transactions

        Of the 50 statements tested, we found 18 statements with expenses that were not reported
in GovTrip or did not match the expenses reported in GovTrip, with questioned costs totaling
more than $13,000. 2 One statement showed airfare that exceeded the GovTrip voucher amounts
by almost $300, another listed an airfare charge over $2,300 that was not included on the related
voucher, and a third statement showed that hotel taxes itemized on a voucher were not charged to
the traveler. We also traced hotel charges from one traveler’s charge card statement to a voucher
that had never been approved, and no receipts had been attached to the voucher as support. Yet
another traveler had numerous cash advances and meals amounting to over $800 charged to his
government card for a trip to Hawaii, but no airfare or hotel charges were evident for the trip.
Further, of the 18 statements with questioned expenses, 11 were from travelers who did not have
a profile in GovTrip and 1 from a traveler who cited a voucher that could not be found in
GovTrip.

        With 36 percent of statements in our sample reflecting some sort of discrepancy, this
issue is both a significant internal control weakness and breakdown, not only because it results in
inaccurate accounting and an inability to rely on GovTrip-generated reports for effective
management, but because it is impossible for supervisors to reconcile expenses on cardholders’
statements with GovTrip vouchers to verify that those expenses were related to an approved trip.
DOI Integrated Charge Card Program Policy Manual, sec. 2.9.2 states that travelers are required
to “[i]nclude a concise, detailed description for each line item…or attach the travel voucher” on
their charge card statements to ensure that all transactions are legitimate. Several of these
questionable expenses appeared on charge card statements with the signatures of both the
traveler and the supervisor, which demonstrates that supervisors are not adequately documenting
the verification of travel charges back to source documents, further reducing the intended
effectiveness of this key internal control.

Missing Traveler Profiles

        Of the 50 charge card statements tested, 11 did not have associated traveler profiles in
GovTrip. Without profiles, it is impossible to reconcile and verify travel charges incurred by
these travelers. Like the user profiles that we found missing when attempting to test travel
vouchers, the inability to match the expenses on the charge card statements against the approved
expenses within the GovTrip system creates an inherent weakness and inability to effectively
manage travel expenses. Missing profiles also precludes managers from detecting and preventing
improper charges.




2
 Due to restricted data access issues, this figure is significantly understated and thus does not represent the total impact of
questioned costs.

                                                                                                                                  6
Improper Management Policy

        During our audit, we found that FWS management had issued a May 27, 2010
memorandum to its employees allowing the use of third-party travel booking Web sites (e.g.,
Expedia, Travelocity, etc.) in cases where it can be shown there is a cost benefit to the
Government. The FTR, however, does not allow the use of third-party vendors (FTR § 301-
50.3). In addition, DOI policy states that it is a mandatory user of the General Services
Administration’s (GSA) city-pair contract, and travelers must book travel using contract fares
through GovTrip. We are not certain whether this memo is being followed at local levels, but we
are concerned about the potential for employees to directly violate the FTR and DOI policy.

Inadequate Management Practice

        In addition to the routine supervisory review of vouchers done by FWS approving
officials, the National Business Center (NBC) performs a post-payment audit on a sample of 10
to 15 percent of all FWS vouchers. According to FWS, travel officials at NBC are also
responsible for providing customer support to FWS, including reporting any errors they find to
FWS travel officials. NBC claimed, however, that they are responsible for contacting FWS
employees whose vouchers show errors to request a faxed amendment to their voucher but are
not responsible for any follow-up beyond this step. One regional Federal agency travel
administrator informed us that while NBC is supposed to initiate contact to follow up on
problems in vouchers, NBC had not provided the administrator with any information that would
allow follow up on any unresolved actions. This uncertainty in the definition of NBC’s role
creates a lack of accountability for correcting errors and issues found on travel vouchers, leaving
open the possibility for unchecked wasteful spending.

Conclusion and Recommendations

        Because ETS-2 is still several months from coming online, FWS has an opportunity to
improve travel management practices under the current GovTrip system and through the
transition. Improving internal controls now will help strengthen overall travel management
controls when FWS fully transitions to the new travel system.

   1. FWS should require supervisors to—

       a. verify that vouchers contain supporting documentation as required by the FTR and
          accurately reflect costs incurred during travel;
       b. ensure travel authorizations are created and approved prior to travel with the only
          exception being bona fide emergency travel;
       c. review vouchers thoroughly and address any unresolved flagged items;
       d. verify and approve all charges on charge card statements; and
       e. ensure that both the traveler and supervisor sign and date charge card statements.

       Agency Response: In its March 13, 2013 response, FWS concurs with the
       recommendation and plans to issue a reminder to employees and approving officials of
       the travel and charge card policies. FWS stated in its response the belief that the existing


                                                                                                      7
   FWS audit reviews were sufficiently catching the types of errors identified in this report
   (see Attachment 2).

   OIG Reply: We consider the recommendation resolved but not implemented. The
   recognition, and general concurrence, by FWS of the seriousness of the issues identified
   within this report indicates its commitment to address the weaknesses that exist in its
   internal controls. Further, we appreciate the efforts that FWS has already made to
   improve the administration and management of its travel process and encourage the
   continuation of such efforts.

   In regards to the adequacy of FWS’s audit review process, given the major gaps in
   understanding of who performs what role in the oversight process under the current
   testing arrangement that FWS has with Interior’s Business Center (formerly National
   Business Center), we are unable to determine the sufficiency of FWS’s audit review
   process. Until such roles are clarified, and the appropriate follow-ups on identified errors
   are consistently handled, the identification of errors can only be minimally successful as
   an internal control.

   In addition, we recognize that no sample-based review process can be expected to catch
   all errors and that some of the issues presented in our report may not individually appear
   so egregious that action seems necessary. We caution, however, against FWS
   misinterpreting what may appear to be a small fiscal or managerial impact based on our
   limited testing. We tested less than 1 percent of FWS’s more than 99,000 vouchers for
   fiscal years 2009 through 2013 and questioned costs in about 28 percent of the vouchers
   tested. When applied to the 2-year voucher population, this represents potential
   questioned costs in approximately 27,500 vouchers. Further, we found various errors in
   over 85 percent of the vouchers tested, which represents the potential for errors in over
   85,000 vouchers for fiscal years 2009 and 2010. Regardless of the amount of the errors,
   the combined impact is of significant concern, and the identification of problems in such
   a high percentage of the vouchers indicates that the existing internal controls are not
   adequate.

   The recommendation will be referred to the Assistant Secretary for Policy, Management
   and Budget (PMB) for implementation tracking. We request that FWS provide PMB with
   the responsible official and target dates for recommendation implementation (see
   Attachment 3).

2. FWS should make changes to correct existing deficiencies, including—

   a. working with the bureau travel leads to ensure that profiles of existing and past
      employees are not deleted from the system;
   b. creating policy limiting the use of auto-approval by employees to legitimate
      emergency travel;
   c. creating policy requiring supervisors to reconcile charge card statements with travel
      vouchers;



                                                                                                8
       d. rescinding the May 27, 2010 memorandum permitting use of third-party travel
          vendors; and
       f. clarifying the responsibility of FWS and/or NBC to follow up on errors found in post-
          payment voucher audits.

       Agency Response: It its response, FWS stated that it generally concurred with the
       recommendation to correct the deficiencies as stated and offered more specific responses
       to each part of the recommendation (see Attachment 2).

       OIG Reply: We consider this recommendation resolved but not implemented. Regarding
       recommendation 2.a, FWS requested a listing of the missing profiles mentioned in this
       report, which we will provide to the deputy financial manager. Regarding
       recommendation 2.b, we will wait to determine if DOI establishes a uniform policy on
       auto-approval as recommended in the report to the Deputy Secretary.

       To help FWS implement this recommendation and improve its existing internal controls
       for its audit review process, we also encourage FWS to track error rates, types, severity,
       office location of travelers, and any other helpful information to develop a better
       understanding of common errors. Consistently tracking this information over time should
       help FWS reduce and better manage the issues we found during our audit. The
       recommendation will be referred to the Assistant Secretary for Policy, Management and
       Budget (PMB) for implementation tracking. We request that FWS provide PMB with the
       responsible official and target dates for recommendation implementation (see Attachment
       3).

       The legislation creating the Office of Inspector General requires that we report to
Congress semiannually on all reports issued, actions taken to implement our recommendations,
and recommendations that have not been implemented.

       No response to this report is required. If you have any questions or need more specific
information about this report’s findings, please contact me at 202-208-5592.

Attachments (3)




                                                                                                 9
                                                                                     Attachment 1


Objective, Scope, and Methodology

        We conducted this performance audit from November 2010 through April 2012 in
accordance with Generally Accepted Government Auditing Standards. These standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.

        We also determined whether FWS had designed and implemented a system of internal
controls or travel management controls to provide reasonable assurance that travel vouchers were
accurate and supported; authorizations were created and approved prior to travel; and charge
card statements were verified, approved and signed by the traveler and supervisor. We found
weaknesses in FWS’s travel management controls. These weaknesses and recommended
corrective actions are discussed in this report, and if implemented, the recommendations should
improve FWS’s travel management controls.

Objective

        Our objective was to assess the U.S. Department of the Interior’s (DOI) implementation,
use, and monitoring of GovTrip as a part of the overall travel system. Specifically, we evaluated
DOI’s ability to reconcile its various systems to determine whether data and dollars spent are fair
and accurate. We also performed testing to ensure that any existing internal controls were
sufficient to reasonably minimize risk of fraud and errors.

Scope

        This was a DOI-wide audit of GovTrip and the related travel system. Our testing included
travel vouchers with travel departures starting in fiscal years 2009 and 2010 along with charge
card statements related to those travel vouchers. In conducting our audit, we visited FWS offices
in—

        •   Albuquerque, NM;
        •   Newark, CA;
        •   Vancouver, WA;
        •   Atlanta, GA;
        •   Arlington, VA; and
        •   Portland, OR.

        Our review of the system included both a performance audit of the current ETS contract
(GovTrip, with a contract period from August 2007 to November 2013) and a review of the
future ETS-2 contract language (contract implementation planned for November 2013). We also
assessed DOI’s integrated charge card program as it relates to travel expenditures.

       During the performance of our audit testing, delays in obtaining access to information
and concerns related to timely reporting necessitated a reduction in the sample size and testing of

                                                                                                  1
                                                                                      Attachment 1


both vouchers and charge card statements. We took steps, however, to allocate the reduction in
testing across bureaus, preserving the integrity of our random and judgmental voucher and
charge card statement samples.

Methodology

         The GovTrip contractor, Northrop Grumman, pulled the voucher testing data from
archived databases, as we were informed that this would be the most accurate and complete way
to establish the voucher universe by bureau and agency. From this universe, vouchers were
statistically sampled using a stratified methodology, and the associated authorizations were also
examined. Once the testing sample was selected, we performed testing of travel vouchers and
authorizations using the live GovTrip environment. Use of the live GovTrip system environment
for document examination was required since the travel program has no read-only audit feature,
and no alternative data repository is available to DOI.

       Given that our testing was limited to the live data environment, we were not able to
perform “through the system” testing of the software. Thus, we did not perform tests of the
GovTrip system and software itself. Rather, we structured interview questions of key DOI
personnel to ascertain the security of the system and the viability of the input data.

        The National Business Center, Charge Card Support Center (NBC) provided us with the
charge card data. NBC extracted the charge card data from PaymentNet, DOI’s gateway to
integrated charge card program data, which is operated by the contractor J.P. Morgan Chase. We
did not perform a reliability assessment or any system tests for this data since, like GovTrip, this
is a contractor-developed system, so our testing was limited to structured interview questions of
key DOI personnel to ascertain the security of the system and the viability of the input data.
Once the testing sample was selected, we performed tests in the field to ascertain the accuracy
and reliability of reconciliation efforts between the GovTrip voucher and related charge card
transactions.

Use of Computer-Processed Data

        We used the GovTrip and Integrated Charge Card databases to identify travel vouchers
and charge card transactions for travel departures starting in fiscal years 2009 and 2010. We did
not perform reliability assessments of the quality of the data because this was outside the scope
of our review. Data from these systems were used for document and transaction selection, and
then reviewed using the electronic and hardcopy records available through DOI. Therefore, the
computer-processed data did not affect the performance of our audit steps.




                                                                                                    2
                                                                                       Attachment 2
                                                                                                 u.s.
                                                                                           FISH li WILDLIFE
                                                                                               SERVICE

                   United States Department of the Interior
                                 FISH AND WILDLIFE SERVICE
                                        Washington, D.C. 20240

                                             MAR 1 3 2013
                                                                                           ~
In Reply Refer To:
FWS/DFM/053977

Memorandum

To:             Assistant Inspector General for Audits, Inspections   nd Evaluations

From:    D~puh~tDirector ~~W                                     ·
Subject:        Draft Audit R ort- GovTrip Use and Monitoring by the U.S. Department of the
                Interior- Fish and Wildlife Service. Report No. WR-IN-FWS-0012-2012

The U.S. Fish and Wildlife Service (Service) has reviewed the above report and generally
concurs with findings and recommendations. In response to the specific recommendations, the
Service has the following comments:

Recommendation 1.

FWS should require supervisors to:
  • verify that vouchers contain supporting documentation as required by the FTR and
      accurately reflect costs incurred during travel;
  • ensure travel authorizations are created and approved prior to travel with the only
      exception being bona fide emergency travel,·
  • review vouchers thoroughly and address any unresolved flagged items,·
  • verify and approve all charges on charge card statements,· and
  • ensure that both the traveler and supervisor sign and date charge card statements.

The Service has identified through its own internal review of travel vouchers that improvement
in supervisory review is needed and concurs with the recommendation. The Service has
developed tools for the supervisor, such as the supervisory travel voucher checklist, to assist in
the travel voucher review. The Service will issue a reminder to employees and approving
officials of the travel and charge card policies.

Regarding the specific findin.gs found in the review of the travel vouchers, the Service believes
many of the errors found were administrative in nature and did not represent an increased
financial risk to the Service. The Service has established internal controls to mitigate the risk by
performing the following:

      1) Since GovTrip was implemented in 2008, the Service has maintained an audit review
         process that will review 100 percent of travel vouchers in excess of $1 ,000 of travel
         voucher reimbursement and a 10 percent random sample of vouchers under $1 ,000
         reimbursement. While this process will not catch all errors, the Service identifies many

                                                                                                        1
       of the errors cited in the report and pursues corrective action from the traveler.

   2) The Service relies on the Financial and Business Management System (FBMS) to provide
      travel expenses to managers and for external reporting which reduces the reliance on the
      GovTrip's reporting and the effect of administrative errors. GovTrip's reporting
      capability has been shown to be inadequate for management needs. Also, centrally billed
      expenses reported in GovTrip are not linked to FBMS further providing timing errors
      between the financial data in GovTrip and FBMS.
   3) The Service performs a variety of charge card exception reviews that look for
      unauthorized charges such as third party booking, improper merchant category codes, and
      expenses incurred on the card with no travel taken.

Recommendation 2.

FWS should make changes to correct existing deficiencies, including:
  • working with the bureau travel leads to ensure that profiles of existing and past
     employees are not deleted from the system;
  • creating policy limiting the use ofauto-approval by employees to legitimate
     emergency travel;
  • creating policy requiring supervisors to reconcile charge card statements with travel
     vouchers;
  • rescinding the May 27, 2010 memorandum permitting use of third-party travel
     vendors; and
  • clarifying the responsibility of FWS and/or NBC to follow up on errors found in
     postpayment voucher audits.

The Service generally concurs with the recommend(ltion to correct the deficiencies as stated and
remind the Regional GovTrip travel administrators of Service and Departmental travel policies.
For each specific recommendation, the Service has the following response:

   1) The Service's Temporary Duty Handbook, A Guide to the TDY Process Section 2.5
      provides detailed instructions on deactivating a GovTrip profile and not deleting the
      profile. This Service procedure became effective soon after GovTrip was implemented,
      therefore, reporting 24 of the 97 travel vouchers as deleted out of GovTrip is rather
      puzzling. Further, in the OIG's review of charge card expenses and reconciling the
      expenses to GovTrip, 11 out of 50 travelers could not be found in GovTrip. To confirm
      the significance of the problem, the Service requests that the OIG provide the travelers'
      names to the Chief, Division of Financial Management (DFM). The DFM Chiefwill
      verify that the 35 traveler profiles were deleted and provide guidance, as necessary, to the
      Regional Offices of the Service's required procedures concerning GovTrip profiles.

   2) The Service believes the policy limiting the use of auto-approve for travel reservations is
      best established at the Departmental level. Therefore, the Service will defer any policy
      on the use of the GovTrip auto-approve feature until the Department issues its official
      policy with ETS-2.
                                                                                                    2
   Since Service employees travel between many cities where no GSA city pair fare exists,
   the Service primarily used auto-approve to ensure travelers could ticket their airline
   reservations using lower priced restricted fares. Airlines generally require the lower
   priced restricted airfares to be ticketed within 24 hours from the time of the reservation.
   If the traveler does not have auto-approve in GovTrip and the approving official does not
   approve the travel authorization within 24 hours, then the fare reserved in GovTrip is
   automatically canceled and lost. The Service believes the savings from restricted fares
   over refundable fares is significant. By taking away the auto-approve feature for only
   emergency travel, the Service believes travel costs will increase significantly.

3) The Service concurs with the recommendation that supervisors reconcile the traveler's
   charge card statement with the travel voucher. The Service will issue a reminder of the
   Department and Service policies on the supervisory review of their employee's charge
   card statement.

4) The Department issued Financial Management Memorandum (FMM) 2012-01, Guidance
   on the Use ofGovTrip and SATO dated October 11,2011 that superseded the Service's
   policy dated May 27, 2010. The Service distributed this policy throughout its
   Headquarters and Regional Offices. Further, the Service will remind travelers with the
   transition to the ETS-2 provider and new Travel Management Company (TMC) about the
   requirements of the FTR.

5) The Service concurs with the recommendation and will work with the Regional Offices
   in clarifying their role and the Interior Business Center's (IBC) role in following up on
   errors found on the post-payment audits.

If you have any questions concerning these comments, please contact Mr. Paul Rauch,
Acting Assistant Director- Business Management and Operations at (703) 358-1822.
Technical questions can be addressed to Mr. George Keller, Chief, Division of Financial
Management, at (703) 358-1742.




                                                                                                 3
                                                                      Attachment 3


Status of Recommendations

    Recommendations                 Status                 Action Required
                                                       The recommendation will be
                                                         referred to the Assistant
       1. a, b, c, d, e         Resolved but not
                                                            Secretary for Policy,
                                 implemented
                                                       Management and Budget for
                                                        tracking of implementation.

                                                       The recommendation will be
                                                         referred to the Assistant
                                Resolved but not
        2.a, b, c, e                                        Secretary for Policy,
                                 implemented
                                                       Management and Budget for
                                                        tracking of implementation.



             2.d            Resolved and implemented      No action necessary.




                                                                                  1
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doi.gov/oig/index.cfm

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
